   REVIEW OF MULTIPLE AWARD
      SCHEDULE PROGRAM
CONTRACT WORKLOAD MANAGEMENT
REPORT NUMBER A060190/Q/6/P07004
         JULY 31, 2007
            REVIEW OF MULTIPLE AWARD SCHEDULE PROGRAM
                 CONTRACT WORKLOAD MANAGEMENT
                  REPORT NUMBER A060190/Q/6/P07004


                             TABLE OF CONTENTS

                                                        Page

REPORT LETTER                                            1

INTRODUCTION

    Background                                           3

    Objective, Scope and Methodology                     4

RESULTS OF REVIEW

    Brief                                                6

    Workload Quantity and Distribution                   6

    Quality of Contracting Actions                       15

    Timeliness of Contracting Actions                    20

    Program Costs                                        23

    Internal Controls                                    24

APPENDICIES

    Management Comments                                 A-1

    Report Distribution                                 B-1
                   REVIEW OF MULTIPLE AWARD SCHEDULE PROGRAM
                        CONTRACT WORKLOAD MANAGEMENT
                         REPORT NUMBER A060190/Q/6/P07004


                                           INTRODUCTION

Background

Under the Multiple Award Schedules Program (Schedules program), GSA’s Federal
Acquisition Service (FAS) establishes long-term government-wide contracts with
vendors to provide Federal agencies access to over 10 million commercial supplies and
services. GSA negotiates the contracts with the objective of achieving the vendors’
most favored customer (MFC) pricing/discounts under similar conditions. The MFC
benchmark reflects GSA’s mission to leverage the collective buying power of the
government to obtain volume discounts. The Schedules program allows agencies to
place orders directly with MAS vendors with the assurance that GSA has already
determined pricing to be fair and reasonable 1 . In addition, the Federal Acquisition
Regulation (FAR) provides that agencies may seek additional discounts before placing
an order. The simplified purchasing method affords agencies the benefit of speed and
cost savings in obtaining the products and services needed to fulfill their missions.
Agencies have only to make a determination that the selected vendor represents the
best overall value to the government. GSA collects a .75 percent fee from vendors on
all MAS contract sales in order to fund its operation of the program.

The Schedules program is one of the largest contracting activities in this nation and has
experienced significant growth over the past decade. From Fiscal Year (FY) 1999
through FY06, schedule sales increased from $10.5 billion to $35.1 billion, as shown
below.

                                       GSA Schedule Sales

                  40
                                                                               33.9     35.1
                  35                                                 31.1
                  30                                        25.6
                  25                                 21.1
       Dollars
                  20                      16.5
    (in billions)               13.6
                  15   10.5
                  10
                   5
                   0
                       1999    2000      2001        2002   2003     2004     2005      2006
                                                     Fiscal Year


1
 For services, GSA ordering guidelines require agencies to consider labor mix and level of effort and
make a determination that the total price is fair and reasonable.


                                                 3
The number of schedule contracts, contracting actions, and staff also increased during
this period. As of FY06, there were 17,643 contracts in the Schedules program. During
FY06, acquisition personnel processed 4,929 offers and 22,783 contract modifications.
As of FY06, 529 people made up the Schedules program staff.

GSA has nine Acquisition Centers, as shown below, that award and administer 37
schedules.

             Auburn, WA:
             Management                                    New York, NY:
             Services              Kansas City, MO:        Office Supplies and
                                   Center for Facilities   Administrative Services
                                   Maintenance and
                                   Hardware




                                                              Arlington, VA:
                                                             •     Services Acquisition Center
                                                             •     Information Technology (IT) Center
                       Fort Worth, TX:                       •     National Furniture Center
                       Greater Southwest                     •     GSA Automotive
                       Acquisition Center                    •     Office of Transportation and
                                                                   Property Management




Objective, Scope and Methodology

The objective of the review was to determine if the FAS is effectively managing the
workload associated with processing contract actions (offers and modifications,
including options to extend existing contracts) in the Schedules program.

We conducted the review from June 2006 through January 2007. To accomplish our
objective, we performed site visits to the Greater Southwest Acquisition Center and the
Management Services Center. In addition, we performed limited survey work of the IT
Acquisition Center, National Furniture Center, and Center for Facilities Maintenance and
Hardware, and met with acquisition officials in FAS Central Office and the Office of the
Chief Acquisition Officer.

We also performed the following steps:

   •   Reviewed relevant Office of Inspector General (OIG) and Government
       Accountability Office (GAO) audit reports from FY92 through FY07.



                                                  4
   •   Reviewed other reports related to reviews of the Schedules program, including
       Office and Management and Budget’s Program Assessment Rating Tool from
       2004 (PART), Program Management Review (PMR) reports from 2006, and
       SiloSmashers’ Multiple Award Schedule Program Research and Analysis from
       2005.

   •   Reviewed relevant Procurement Information Bulletins (PIB) and Procurement
       Information Notices (PIN) from FY97 through FY07.

   •   Reviewed applicable provisions of the Federal Acquisition Regulation (FAR).

   •   Reviewed information about the Schedules program on various GSA websites.

   •   Held discussions with Center officials and staff regarding responsibilities,
       program goals, methods and processes for work distribution and balance, and
       the effects of recent schedule transfers.

   •   Reviewed Center organizational charts and staffing information for the
       Management Services Center, Greater Southwest Acquisition Center, Center for
       Facilities Maintenance and Hardware, Office Supplies and Administrative
       Services, Services Acquisition Center, Information Technology (IT) Center, and
       National Furniture Center.

   •   Analyzed and evaluated workload distribution statistics for the Schedules
       program for FY99 through February 2007.

   •   Reviewed FAS’ use of various automated systems to monitor and assess the
       workload associated with the Schedules program.

   •   Reviewed a sample of contracts eligible for renewal in FY06 in the Management
       Services Center and the Greater Southwest Acquisition Center.

The review was conducted in accordance with generally accepted government auditing
standards.




                                       5
                                RESULTS OF REVIEW


Brief

FAS management endeavors to ensure that MAS workload is fairly balanced by
adjusting workload within the Centers and between the Centers to improve workload
balance. However, FAS could facilitate workload distribution by improving the quality
and accuracy of data related to contract modifications in the automated system used to
manage MAS work. In addition, while FAS has taken action to reduce the number of
underutilized schedule contracts, a more structured process could enhance these
efforts. Further, by adopting a more strategic approach to managing the Schedules
program, FAS may be able to more effectively utilize its resources to enhance customer
and vendor satisfaction.

To ensure that contracting actions meet minimum standards, the Centers we visited
have implemented training, developed guidance, and instituted quality reviews. Our
review of contract file documentation indicated that the Centers generally complied with
administrative policies and procedures related to approvals and followed Center
templates for exercising contract options. However, FAS could improve consistency
and effectiveness in achieving best value for customer agencies and taxpayers by
improving guidance for contracting personnel and establishing performance measures
related to verifying vendor commercial sales practice (CSP) disclosures, considering
field pricing assistance, and conducting effective price analyses and negotiations.

Cycle time related to processing contracting actions is one of the primary measures
used by the Centers to gauge efficiency of operations, and FAS has been able to
reduce cycle times in recent years. FAS may be able to further reduce cycle times by
expanding use of practices used by some Centers, such as performing an initial
screening of incoming offers.         In addition, development of standard operating
procedures for transferring contract files when schedule reassignments occur could help
ensure a smooth transition. Further, FAS needs to ensure that its recent focus on the
timeliness of offer processing does not lead Contracting Officers/Contract Specialists
(CO/CS) to sacrifice quality or timeliness of modifications and options.

While MAS sales and revenues have increased more rapidly than          program costs in
recent years, FAS has recently taken action to reduce program costs.   FAS may be able
to further reduce program costs by adopting the strategic approach     to the Schedules
program that we recommend. FAS could also increase emphasis            on costs through
enhancements to program performance measures.


Workload Quantity and Distribution

Center management and Central Office FAS officials endeavor to ensure that workload
is fairly balanced. Improving the quality and accuracy of data in the principal automated



                                        6
system used to manage work (FSS Online) could facilitate these efforts. In addition,
while FAS has taken action to reduce the number of underutilized contracts, a more
structured process could enhance these efforts. Further, FAS may be able to more
effectively utilize its resources to enhance customer and vendor satisfaction by adopting
a more strategic approach to managing the Schedules program.

FAS Efforts to Balance Workload. FAS officials have made efforts to equitably
distribute the MAS workload among and within the Centers. Prior to our field visits to
the Centers, we analyzed FSS Online workload statistics and other FAS data to
understand workload issues and assess whether workload appeared to be balanced
within and among the Centers. FSS Online statistics indicated that the volume of offers
and modifications has increased in recent years, as shown in the chart below.


                         Number of Offers and Modifications
                30
                                                                      23.0          22.8
                25                               20.7
                                17.8                           24.8          18.2
                20                       16.7
 Numbers                14.3
 (in thousands) 15
                10                                                    5.7
                                                                             5.5    4.9
                                                      3.2     3.9
                                 2.6     2.4
                 5       2.0

                 0
                        1999    2000    2001      2002       2003     2004   2005   2006
                                                      Fiscal Year
                                             Offers         Modifications


FSS Online data also indicated that the number of contracting actions processed varied
considerably among the CO/CSs in the Centers we visited, as did the number of
schedule contracts assigned to each CO/CS. However, we determined that the
workload statistics do not provide an accurate indication of workload balance.

One reason for the disparity in the number of contracting actions processed per person
is that CO/CSs in some Centers specialize in certain types of contracting actions. Also
not reflected in the statistics is the fact that some contracting actions and schedules are
more complex than others and therefore, take longer. Further, some vendors generate
significantly more modifications than others, making it reasonable to assume that there
would be differences in the number of contracts assigned to each person.

Each CO/CS is generally assigned a specific schedule or portion of a schedule.
However, Center managers consider other factors, such as existing workload and
individual skills, when assigning work. In addition, when the workload has shifted
disproportionately toward one schedule or branch, the Centers have adjusted work
assignments as necessary.



                                         7
To further balance workload among the Centers and also to improve operational
efficiencies, the FAS Office of Acquisition Management reassigned several schedules
during FY06 and FY07, including the transfers shown in the following table. FAS
advised us that additional schedule transfers may occur.

                Description of
    Schedule                                                                                Number of
               Products and/or
    Number                                   From                         To                Contracts 2
                  Services

                   Information            Information            Center for Facilities
       70          Technology             Technology              Maintenance and               183 4
                                       Acquisition Center           Hardware 3

                                                                 Center for Facilities
                    Energy               Management
      871 II                                                      Maintenance and                46
                  Management            Services Center
                                                                     Hardware

                  Professional
                                           Services            Management Services
       871        Engineering                                                                   750
                                       Acquisition Center            Center
                    Services

       78            Sports,
                  Promotional,         Greater Southwest          National Furniture            665
                   Recreation,         Acquisition Center              Center
                 Trophies, Signs

                 Advertising and
      541          Integrated              Services              Greater Southwest              700
                   Marketing           Acquisition Center        Acquisition Center
                    Solutions

Staffing has increased somewhat in recent years, and the FAS Office of the Controller
has recently granted some of the Centers approval to hire additional contracting
personnel. FAS noted in the October 2006 Business Plan for the Schedules program
that hiring experienced contracting personnel remains a challenge as the number of
offers and modifications increase. A fairly high percentage of FAS personnel are
eligible for retirement within five years (for example, 27% in one Center and 43% in
another), but FAS has controls to identify these dates, and the Centers are aware of the
potential impact on their operations.




2
  Approximate number of contracts transferred
3
  Some Center for Facilities Maintenance and Hardware personnel were detailed to the IT Acquisition
Center to manage these contracts.
4
  The IT Acquisition Center retained responsibility for approximately 5,200 contracts. The 183 IT contracts
transferred represent approximately 3.4 percent of the total IT schedule contracts.


                                                8
Automated Systems. By clarifying policy regarding the input of contract modifications to
FSS Online and enhancing the way the system classifies modifications, FAS could
improve the accuracy of the data used by Center managers to distribute work.

When assigning incoming work, Center managers refer to FSS Online data for
information on the number of contracting actions processed by each CO/CS, their
average cycle times, and their current workload. In addition, Central Office FAS
management considers FSS Online data when analyzing Center activity.

During our interviews, we learned that the processes to enter modification information
into FSS Online were not consistent. Specifically:

   •   Some Centers centrally log modification requests immediately upon receipt, while
       others delay entry until the CO/CS processes the modification. Therefore, the
       data in FSS Online may not accurately reflect the volume of work, overall and by
       CO/CS, at a particular point in time. Further, the cycle times to process
       modifications shown in FSS Online may not be accurate.

   •   CO/CSs use different methods to input modifications into FSS Online. For
       example, a vendor may request multiple contract changes at one time (e.g.,
       changing address, adding items, and changing prices). One CO/CS may input
       these changes as one modification, while another CO/CS may input the changes
       as three modifications. This difference can distort production statistics and affect
       workload assignments.

Center personnel were unaware of any centralized guidance regarding the preferred
method and timing of entering modification actions into FSS Online.

FSS Online also does not classify modifications by the type of contracting action. In
discussions with CO/CSs, they informed us that certain administrative modifications
such as changes in vendor point of contact or address can be processed quickly, while
other modifications such as price changes and options generally take longer to process.

The accuracy of modification data in FSS Online could be improved if Central Office
FAS established a consistent policy regarding entering modification information. In
addition, the data FAS managers use to assign and manage work could be enhanced if
modifications were classified according to relative complexity.

Recommendations

We recommend that the Commissioner, FAS:

   1. Develop policy to standardize Center processes regarding the method and timing
      of entering modification information into FSS Online.

   2. Amend FSS Online to classify modifications according to relative complexity.


                                         9
Management Comments

In his July 17, 2007 response to the draft report, the Commissioner indicated partial
agreement with these two recommendations. The response stated that changes to the
contract modification process would be considered as part of FAS’ broader
reengineering process for the Schedules program. We reaffirm the recommendation.
The Commissioner’s comments are included in their entirety as Appendix A to this
report.

Underutilized Contracts. FAS has instituted procedures to cancel schedule contracts
that do not meet the minimum sales threshold and educate vendors about program
expectations and requirements. We believe that FAS could further reduce the number
of underutilized contracts by implementing a more structured process and considering
an increase in the threshold amount for minimum sales requirements.

Currently, FAS policy requires all vendors on schedule to generate $25,000 in sales
within the first two years of their contract and $25,000 annually thereafter. GSA’s Chief
Acquisition Officer estimated that it costs an average of $5,000 per year to administer a
schedule contract. To generate $5,000 in revenue, a schedule contract would need
annual sales of $666,667 ($666,667 x .75% = $5,000). Given that $25,000 in sales
generates only $187.50 in revenue for FAS ($25,000 x .75 percent = $187.50), FAS
should consider increasing the current minimum sales threshold. As part of this
consideration, FAS may want to assess whether different thresholds would be
appropriate for different schedules.

In an attempt to reduce the number of schedule contracts with little or no sales, FAS
has taken the following actions:

   •   Since November 2005, the Business Management Division in the Office of
       Acquisition Management has reported canceling 855 contracts with low sales or
       no sales. We sampled 171 of those reported cancellations and found that
       approximately 95 percent of these contracts had, in fact, been cancelled.

   •   PIB 97-9, dated June 2, 1997, states that costs associated with every contract
       are significant, and that when it is time to exercise an option, the CO must review
       sales data to determine whether the amount of sales justifies the expense of
       exercising the option and continuing to administer the contract.

   •   PIN 2007-03, issued February 27, 2007, states that for contracts not meeting
       contract sales criteria, the CO/CS needs to consider a variety of factors, such as
       the nature of the product or service and whether the vendor has any imminent or
       unreported sales, and make a business decision whether to cancel the contract.

In addition, in the interest of preventing award of underutilized contracts, FAS has
recently implemented procedures to ensure that vendors submitting offers fully
understand the requirements and expectations of the program; specifically:


                                        10
   •   In FY06, FAS developed a letter for all prospective offerors that explains vendor
       responsibilities associated with having a schedule contract, including sales
       requirements and asks the vendors to consider whether a schedule contract is in
       their best interests.

   •   In FY07, FAS developed an educational seminar, “Pathway to Success,” as a
       requirement for all vendors interested in participating in GSA’s MAS Express
       Program. The MAS Express Program is associated with the GSA Administrator’s
       initiative for awarding contracts in 30 days, discussed later in this report.

   •   FAS encourages all prospective vendors to take an online course, “How to
       Become a Contractor—GSA Schedules Program,” through GSA’s Center for
       Acquisition Excellence.

Even with these procedures in place, many schedule contracts have minimal sales. Of
the 11,828 MAS contracts that had been in effect at least two years as of September
30, 2006, 3,117 contracts (26%) had reported sales of less than $25,000, which
included 1,976 contracts (17%) with no sales.

FAS may be able to further reduce the number of underutilized contracts by adopting a
more structured approach to identify contracts with sales below the minimum threshold.
FAS could institute a control whereby total sales are automatically computed on each
contract’s two-year anniversary. If the sales are below the minimum threshold, an
automated system could generate a letter to the vendor and a notice to the CO/CS.
Unless a CO/CS intervenes based on vendor feedback, the contract would be cancelled
after a reasonable period of time. After the first two years of the contract, this process
could be repeated to ensure the vendor is meeting the minimum annual sales
requirement.

Recommendations

We recommend that the Commissioner, FAS:

   3. Adopt a more structured approach to reduce the number of existing underutilized
      schedule contracts.

   4. Consider increasing the minimum sales threshold for schedule contracts from the
      current minimum ($25,000 for the first two years, and $25,000 annually
      thereafter).

Management Comments

In his July 17, 2007 response to the draft report, the Commissioner concurred with
these two recommendations. The Commissioner’s comments are included in their
entirety as Appendix A to this report.



                                        11
Strategic Approach. The evolution of the Schedules program has contributed to the
significant increase in the number of schedules, contracts, and contracting actions. This
increase has also contributed to the large number of underutilized contracts that
generate additional work for FAS, which does not benefit customer agencies, taxpayers,
or vendors. By adopting a more strategic approach to managing the Schedules
program, FAS may be able to more effectively utilize its resources to enhance customer
and vendor satisfaction.



                           Growth in Number of Contracts
                 20,000
                                                                       17,683
                 18,000
                 16,000
                 14,000
                                                            11,434
       Number    12,000
                 10,000
                  8,000                     6,800
                  6,000
                  4,000
                              1,817
                  2,000
                      0
                             1994           1998            2002        2006

                                              Fiscal Year


Public Law 103-286, which Congress passed in 1994, required GSA to phase in
reimbursable funding for the Schedules program over a three-year period starting in
FY95. Under this funding mechanism, vendors collect money from customers and remit
the money quarterly to GSA to cover the cost of operating the program. GSA initially
set the fee at one percent of sales, but lowered it to .75 percent as of January 1, 2004.
Prior to the passage of Public Law 103-286, the program was funded through annual
appropriations. In 1996, the Schedules program also converted from mandatory use to
a non-mandatory program.

The industrial funding business model, conversion of the Schedules program to non-
mandatory status, and customer needs have led GSA to consider ways to expand
revenue and the products and services offered under the Schedules program, as
follows:


                                       12
•     In 1997, GSA began awarding multiple contracts for identical items. This allowed
      FAS to award more contracts.

•     During FY98 through FY00, GSA developed a number of additional schedules for
      services, as demonstrated in the table below, and they continue to try to identify
      additional opportunities for growth. For example, the FY06 Business Plan for the
      Schedules program stated that the Office Supplies and Administrative Services
      Acquisition Center was reviewing the addition of Administrative Support Services.

    Fiscal Year                                    Schedules Added


       1998       Auditing, financial management services, and financial asset services


       1999       Marketing, media, and public information services; professional engineering
                  services; environmental advisory services; security; energy management;
                  human resources; mail management; and translation and interpretation
                  services.


       2000       Debt collection and financial-related legal services; recovery auditing services;
                  move management services; logistics and supply/value chain management.
                  Also, added services related to energy, geographic information, program
                  integration and project management, alternative dispute resolution support,
                  mailroom ergonomic analysis, and human resources.


Large numbers of schedule contracts naturally increase work for many areas of FAS.
Not only are more resources required to evaluate more offers, but more contracts mean
more modifications must be processed, as well as other administrative functions, such
as visits by FAS Industrial Operations Analysts that monitor contract compliance,
including vendor controls over sales reporting. Also, as noted in the FY07 Business
Plan for one of the Centers, the large number of vendors on each schedule makes it
difficult for customer agencies to narrow down vendors when performing market
research and making a best value determination. Further, unlimited contracts, as well
as large numbers of underutilized contracts, suggest that FAS may not be effectively
leveraging the government’s buying power.

We believe that FAS could use its acquisition resources more efficiently and effectively
and improve the Schedules program outcomes by implementing a more strategic
approach. For example, it may be desirable to strategically limit the number and/or type
of vendors (manufacturer vs. reseller, small vs. large, etc.) offering identical goods or
services, while still providing customer agencies with sufficient selection. Similarly, it
may not be advantageous to award fixed-price contracts for certain types of products
and services. Specific strategies would emerge from extensive analysis of various


                                              13
product and service groups including thorough market research and analysis of
commercial practices in conjunction with an examination of government customer
buying patterns, including the level of meaningful competition occurring at the order
level.

Through the Services Acquisition Reform Act of 2003, Congress chartered a panel to
study current laws, regulations, and government-wide acquisition policies. This panel
was to recommend appropriate reforms to ensure the effective and appropriate use of
commercial practices to government acquisitions. The panel issued its Final Draft report
in December 2006. A key finding of the panel was that competition is the bedrock of
commercial practice. The panel recommended a new services schedule for information
technology that would reduce the burden on vendors of negotiating labor rates with
GSA and at the same time improve competition. The panel stated that labor rate
negotiations produce little meaningful price competition because services of this type
are requirement-specific. They stated that meaningful competition results from an
offeror responding to a specific order requirement with an appropriate and well-priced
labor mix resulting in a quality solution, and stated that competition should be required
at the order level. We believe this principle may apply to other types of services and
perhaps some products, as well.

Imperative to the success of a strategic approach is the availability of comprehensive
data regarding usage of the schedules. Currently, FAS only requires MAS vendors to
report total contract sales quarterly by Special Item Number. Therefore, FAS does not
have information on the specific products and services individual customers are buying,
nor can FAS analyze order size and frequency. FAS is aware of the limitations of its
data and is trying to extract data from GSA Advantage! to try to improve the quality of its
data regarding customer purchases. To assist in evaluating schedule use in order to
implement a strategic approach, FAS should expedite efforts to obtain more
comprehensive data regarding customer agency buying patterns at the order level.

Recommendation

We recommend that the Commissioner, FAS:

   5. Begin to implement a more strategic approach for the Schedules program with a
      focus on determining the best methods to leverage the government’s
      requirements for different types of products and services to obtain best value for
      customer agencies and taxpayers. The strategy should include thorough market
      research and analysis of commercial practices of products and services offered
      under the Schedules program in conjunction with an extensive analysis of
      government customer buying patterns, including the level of meaningful
      competition occurring at the order level.

Management Comments




                                        14
The Commissioner’s July 17, 2007 response to the draft report concurred with the
recommendation. The Commissioner’s comments are included in their entirety as
Appendix A to this report.


Quality of Contracting Actions

The Centers we visited have established policies and procedures to ensure the overall
quality of contracting actions, including training and guidance, and quality reviews. Our
review of contract file documentation indicated that the Centers generally complied with
administrative policies and procedures related to approvals and followed Center
templates for exercising contract options. However, we noted variances in the level of
documentation related to price analysis and negotiations.

While FAS considers a more strategic approach for some schedule items, as discussed
in the previous section of this report, FAS could improve consistency and effectiveness
in achieving best value for customer agencies and taxpayers by (1) providing improved
guidance to contracting personnel that describes specific documentation requirements
related to price analysis and policies and techniques related to negotiations, and (2)
establishing performance measures that encourage CO/CSs to verify commercial sales
practices disclosed by vendors, give due consideration to findings of pre-award
attestation reviews and other field pricing assistance, and conduct effective price
analyses and negotiations.

Importance of Price Analysis and Negotiations. FAR 8.404(d) states that, “GSA has
already determined the prices of supplies and fixed-price services, and rates for
services offered at hourly rates, under schedule contracts to be fair and reasonable.”
Quality price analyses and negotiations are key factors to ensure that the Schedules
program fulfills this value proposition. The significance of price has been previously well
documented, as evidenced by the following:

   ♦ GSA has identified the Schedules program as a Major Management Challenge in
     its Annual Performance and Accountability Report for the past 7 years. GSA’s
     concern is that, as the Schedules program has grown, the importance of certain
     program fundamentals, such as price analysis and negotiations have diminished.

   ♦ In June 1997, the Director of FSS’ Acquisition Management Center issued a PIB
     stating that merely exercising options without further evaluation or analysis is not
     adequate. This PIB also highlights the importance of constantly monitoring
     contract prices.

   ♦ In March 1999 and August 2004, the Director of FSS’ Acquisition Management
     Center issued additional PIBs emphasizing the importance of prices, not only at
     award, but also throughout the life of the contract. The 1999 PIB states that the
     prices and terms agreed to in modifications can become more important than
     those negotiated at contract award. These PIBs reflect FAS’ recognition that


                                        15
       over extended periods of time, a vendor’s pricing practices are expected to
       change, and therefore, the vendor assertions that no changes have transpired
       should be questioned.

    ♦ In a July 2005 report, GAO cited documentation weaknesses related to price
      analysis and negotiation and stated that for more than 25 years, it has reported
      on GSA’s Schedule program pricing problems. GAO concluded that GSA
      continues to miss opportunities to save hundreds of millions of dollars.

    ♦ In August 2001, the GSA OIG issued a special report 5 that emphasized price
      analysis as the key substantive step a CO performs to arrive at a fair and
      reasonable price. The OIG found that 44 out of 80 schedule contracts reviewed
      were extended without a meaningful or vigorous price analysis.

    ♦ In addition, GSA OIG attestation reviews of schedule vendor pricing information
      continue to identify problems. Over 75 percent of pre-award MAS attestation
      reviews issued by the GSA OIG from FY05 through the first quarter of FY07
      indicated that the vendor’s CSP was not current, accurate, or complete. For the
      same time period, the GSA OIG recommended over $2.3 billion in savings as a
      result of these reviews.

Quality Reviews. Central Office FAS and the Centers have implemented procedures to
help ensure overall contract quality, including MFC pricing. In some Centers, if
discounts negotiated are less than the vendor’s disclosed MFC, the CO/CS must obtain
management approval. In addition, all of the Centers are subject to annual review by
the Office of the Chief Acquisition Officer (OCAO) through the PMR process. 6 The
Centers we visited have also established various levels of internal quality reviews,
including reviews of contract files to assess compliance with the FAR and other
requirements. The Centers use checklists to evaluate the various components of the
contract file, including the presence and sufficiency of key documents such as
acquisition plans and price negotiation memoranda. Further, as an additional control for
high-risk awards, Centers have implemented evaluation panel reviews for all awards
expected to exceed a certain dollar threshold. These thresholds vary from Center to
Center.

Contract Documentation Review. For the two Centers we visited, we selected a sample
of 31 of the highest dollar value contracts eligible for renewal in FY06. The total
cumulative sales for these 31 contracts exceeded $2.1 billion as of 9/30/06, which
represented 49 percent of the total cumulative sales for the contracts eligible for
renewal in these regions for FY06. For these 31 contracts, we requested:

    ♦ Standard Form 30s (SF30), Amendment of Solicitation/Modification of Contract
      for the option and any temporary extensions prior to exercising the option.
5
  General Services Administration, Office of Inspector General, MAS Pricing Practices: Is FSS Observing
Regulatory Provisions Regarding Pricing? (August 24, 2001).
6
  The OCAO reviews cover all GSA procurement activity and are generally performed on a regional basis.


                                              16
    ♦ Pre-Negotiation and Price Negotiation Memoranda for the option.

    ♦ Documentation of internal quality reviews of these contract actions.

Our review of the information provided was limited to the contract file documentation as
it related to the following:

    9 COs approved contracting actions
    9 Management officials approved temporary contract extensions
    9 Management officials approved awards resulting in discounts less than MFC
    9 An internal panel approved options meeting the Centers’ sales thresholds
    9 CS/COs followed the Center’s template guidance
    9 CS/COs documented price analyses and negotiations in accordance with FAR
      15.406

Our review of contract file documentation indicated that the Centers generally complied
with administrative policies and procedures related to approvals and followed Center
templates for exercising contract options. However, as shown in the following table, as
part of our contract documentation review, we noted variances in the level of
documentation relating to price analysis and negotiations.


     Subject                   FAR Requirement                   Documentation Variances


 Documentation     FAR 15.406-1(b), “The contracting officer    Several price analyses
 of Negotiation    shall establish prenegotiation objectives    included negotiation
 Objectives        before the negotiation of any pricing        objectives. However, some
                   action.”                                     did not.


 Documentation     FAR 15.406-3, “The contracting officer       Some files contained
 of Negotiations   shall document in the contract file the      thorough documentation,
                   principal elements of the negotiated         including negotiation
                   agreement. The documentation shall           objectives and whether they
                   include…prenegotiation objectives and        were achieved, while others
                   the negotiated agreement including an        included no discussion of
                   explanation of any significant differences   negotiations.
                   between the two positions.”


 Discussion of     FAR 15-406(3)(a), “The contracting officer   The documentation related
 Audit Findings    shall document in the contract file…a        to audits ranged from




                                           17
                        summary of the contractor’s proposal, any     mentioning an audit on a
                        field pricing assistance 7                    SF30 to including the audit
                        recommendations, including the reasons        report and discussing the
                        for any pertinent variances from them, the    audit findings and the CO’s
                        Government’s negotiation objective, and       response
                        the negotiated position.”


FAR 4.8, Government Contract Files, requires that contract files be sufficient to
comprise a complete history of the transaction, including support for actions taken. In
conjunction with FAR 4.8, PIB 05-4, Documentation, Documentation, Why It’s Important,
lists specific documents that should be contained in the official contract file, including
price analysis and negotiation documentation. In addition, FAR 15.406 specifies
requirements for documenting contract pricing.

We did not find evidence that the Centers’ internal quality reviews identified the need for
improved documentation in these areas. However, some recent PMRs noted
documentation inconsistencies and a need for improvement in documenting price
analyses and negotiations. In addition to these documentation variances, our interviews
of CO/CSs indicated substantial differences in negotiation philosophies. Some CO/CSs
deem it important to always conduct negotiations with vendors, either in person or by
telephone. Others prefer not to negotiate with vendors.

Opportunities to Improve Consistency and Quality. More specific guidance related to
price analysis documentation requirements and negotiation policies and techniques, as
well as performance incentives that encourage due diligence in these areas, could
improve consistency and effectiveness and thereby enhance the Schedules program’s
value to customer agencies, taxpayers, and vendors.

       Training and Guidance. The Centers we visited provide their contracting
personnel with a variety of formal training opportunities, including the Contracting
Officer Warrant Program. These classes are attended by CSs working towards
becoming warranted and by current COs as refresher training. In addition to formal
training opportunities, the Centers provide on-the-job training. The majority of
personnel we interviewed expressed satisfaction with current training programs. In
addition to training, the Centers we visited have developed templates for awards and
options, which are used as guidance to capture relevant policies and regulations and
adequately document the contract file.

While CO/CSs have access to various training opportunities and contracting guidance
(PIBs, PINs, FAR, Federal Acquisition Institute guidance, etc.), there is no nationwide
desk guide that is tailored to provide in-depth, comprehensive, consistent, and readily
accessible guidance on price analysis and negotiation of schedule contracts.



7
    Field pricing assistance includes audit assistance and reports.


                                                  18
A September 2005 consultant’s report 8 on challenges facing the Schedules program
identified that a MAS desk guide could provide a method for standardizing and
formalizing procedures and practices. Supplying contracting personnel with readily
accessible reference materials, especially those outlining and strengthening the
documentation requirements related to price analysis, would enhance the ability of
CO/CSs to achieve the best value for customer agencies and taxpayers. Achieving
greater standardization could also increase vendor satisfaction with the program by
clarifying expectations.

Recommendation

We recommend that the Commissioner, FAS:

    6. Establish specific nationwide guidance related to price analysis documentation
       requirements and negotiation policies and techniques for schedule contracts.

Management Comments

In his July 17, 2007 response to the draft report, the Commissioner concurred with the
recommendation. The Commissioner’s comments are included in their entirety as
Appendix A to this report.


        Quality Measurement. CO/CS performance evaluations consider quality, as well
as timeliness. Unlike the performance goals related to timeliness, which are well
defined and specific, the method of evaluating quality is more subjective. The quality
portion of evaluations is based on supervisory and other internal reviews of contract
files previously described (see Quality Reviews section).

We do not believe the quality measures adequately emphasize verification                 of the
accuracy of commercial sales practices disclosed by the vendor, the quality               of the
CO/CS’ price evaluation and negotiation effectiveness, or consideration of field         pricing
assistance, including pre-award attestation reviews, which are paramount                 to the
Schedules’ current business model.

A key value proposition for the Schedules program is customer agencies’ ability to order
goods and services with the assurance that GSA has determined the prices to be fair
and reasonable. Yet, the Schedules program is funded based on a percentage (.75
percent) of sales, providing an inherent disincentive related to pricing. Accordingly,
having a well-defined quality measure that focuses on price evaluation and negotiations
is important to ensure effectiveness in these areas. Because accuracy of vendor
disclosures continues to be a problem, and OIG pre-award attestation reviews focus on
verifying vendor disclosures, COs should be held accountable for verifying disclosures
and providing due consideration to these reviews.

8
 SiloSmashers, Final Report: Multiple Award Schedule (MAS) Program Research & Analysis
(September 30, 2005).


                                           19
Recommendation

We recommend that the Commissioner, FAS:

   7. Establish performance measures that evaluate CO/CS’ (a) verification of vendor
      disclosures related to commercial sales practices, (b) effectiveness in analyzing
      prices and conducting negotiations, and (c) consideration of the field pricing
      assistance.

Management Comments

The Commissioner’s July 17, 2007 response to the draft report indicated partial
agreement with the recommendation. The Commissioner said he agrees with the need
for meaningful performance measures but is not convinced the recommended
measures are appropriate for a CO/CS. The Commissioner’s response stated that he
does not believe verification of vendor disclosures related to commercial sales practices
is a proper role for a CO/CS. In addition, the Commissioner stated, “Performing
quantitative analysis during the process of analyzing prices and conducting negotiations
is not appropriate.” However, subsequent to our receipt of the Commissioner’s
response, FAS explained that this comment was intended to read, “Evaluating
effectiveness in analyzing prices and conducting negotiations is not conducive to
quantitative measurement.”        Further, the Commissioner expressed concern that
establishing a specific performance measure would revoke the CO’s right to exercise
judgment.

We reaffirm our recommendation. Performance measures are key indicators of
employee performance and a catalyst for change. The OIG is currently conducting a
separate review of MAS performance measures, and we plan to further explore this
issue during the course of that review.

In addition, we believe it is a proper role for the CO/CS to verify vendor disclosures. As
evidenced by the large percentage of CSP inaccuracies identified in OIG preaward
attestation reviews compared to the relatively small number of offers that the OIG can
review, this is a risk area that needs to be addressed.


Timeliness of Contracting Actions

Cycle time related to processing contracting actions is one of the primary measures
used by the Centers to gauge efficiency of operation. Cycle times have declined in
recent years, in part due to implementation of process improvements in some Centers.
For example, as a means of expediting rejections of materially deficient offers, some
Centers perform an initial screening of incoming offers. Expanded implementation of
these practices could allow other Centers to improve efficiency of their operations. In
addition, development of standard operating procedures for the transfer of contract files



                                        20
when schedule reassignments occur could help ensure a smooth transition. Further,
FAS should ensure that its recent focus on timeliness of offer processing does not lead
CO/CSs to sacrifice quality or the timeliness of modifications and options.

Cycle Times. Cycle times for processing contracting actions have declined in recent
years, as shown in the chart below. The decrease in contracting actions has occurred
even as the volume of contracting actions has significantly increased.

                             Cycle Times for Contracting Actions
                   150
                   125
                   100
              Days  75
                    50
                    25
                     0
                           1999 2000 2001 2002 2003 2004 2005 2006
                                                 Fiscal Year

                                        Offers     Modifications


Centers track cycle times for processing contracting actions using FSS Online reports.
Currently, the Centers establish their own goals and as a result, the goals vary from
Center to Center. Given the range of complexity among schedules, we believe this to
be a reasonable approach.

In FY04, GSA implemented eOffer and eMod, two web-based applications that were
designed to streamline the processing of contracting actions. In a recent review of
eOffer and eMod, the OIG determined that utilization of the two systems remains low
and that average cycle times for eOffers exceeded average cycle times for paper offers
(7.2 days longer in FY05, and 34.6 days longer in FY06). The OIG’s report
recommended that the Commissioner of FAS take action to address these issues. 9

Some factors affecting timeliness are outside of the CO/CS’ control. For example, they
have limited control or influence over timeliness of responses to their requests for
information outside of the Center (e.g., Small Business Administration, vendors, other
GSA offices).

Initial Review of Offers. Some Centers have implemented a procedure to expedite
rejection of materially deficient offers. Expansion of this practice to other Centers could
further reduce cycle times for processing offers, as it ensures that only responsive offers
will be assigned to CO/CSs.


9
 See report number A060149/Q/T/P07002, Review of eOffer,/eMod, GSA’s Electronic Contract Proposal
and Modification System, dated March 6, 2007.


                                           21
Current policy issued by the FAS Office of Commercial Acquisition recommends that
within two days of receiving an offer, Centers should perform an initial screening of the
offer for a limited number of mandatory elements. Some Centers have improved upon
this concept by centralizing this review responsibility. For example, in the Centers we
visited, a contract lead or branch chief performs the initial review. In another Center,
specific staff members have this responsibility. In addition to centralizing the review, at
least one Center conducts a more thorough review to identify other material
deficiencies.

Recommendation

We recommend that the Commissioner, FAS:

   8. Develop standardized procedures for the initial screening of offers to include 1)
      centralizing the reviews, and 2) expanding the reviews to identify additional
      material deficiencies.

Management Comments

In his July 17, 2007 response to the draft report, the Commissioner concurred with the
recommendation. The Commissioner’s comments are included in their entirety as
Appendix A to this report.

Procedures for Transferring Contracts. During our review of contract documentation,
we determined that the Centers generally exercised contract options in a timely manner.
However, we noted that as a result of some recent schedule transfers, timeliness and
productivity were affected. Developing nationwide standard procedures for future
schedule transfers could minimize these problems.

Center personnel advised us that there was considerable confusion during a recent
schedule transfer involving hundreds of contracts. PIB 97-4, dated February 19, 1997,
states that COs should know where their contract files are at all times. Locating and
organizing the transferred contract files took considerable time and effort that could
have been spent processing contracting actions. There is also an increased risk that
contracts could accidentally lapse during schedule transfers.

Central Office FAS officials advised us that there are no standard operating procedures
governing the transition of schedules from one Center to another. However, we noted
that there are procedures for transfer of administrative contract files. Since FAS is
considering additional schedule transfers, we suggest development of standard
operating procedures for the transfer of contract files.

Recommendation

We recommend that the Commissioner, FAS:




                                        22
   9. Develop standard operating procedures governing the transfer of contracts when
      schedules are reassigned from one Center to another.

Management Comments

In his July 17, 2007 response to the draft report, the Commissioner concurred with the
recommendation. The Commissioner’s comments are included in their entirety as
Appendix A to this report.

30-Day Goal. In June 2006, GSA's Administrator established a goal of awarding
schedule contracts within 30 days of offer receipt. This is a substantial reduction from
the 87.7 days the Centers averaged in FY06.

In response to the 30-day goal, FAS studied its offer evaluation process to identify ways
to expedite contract award. In January 2007, FAS initiated a pilot program to accelerate
offer processing for specific special item numbers under five schedules. This program
calls for prequalification of vendors and initial review of offers by designated staff
located in Chicago, Illinois.

A concern with the 30-day goal is that the quality of contract awards may suffer because
the CO/CS may not have sufficient time to fully evaluate incoming offers and negotiate
best value. Another concern is that with the focus on offers, timeliness of processing
other contracting actions may suffer. We encourage FAS to balance its focus between
timeliness and quality of contract awards. In addition, FAS should give equal attention
to timeliness for all types of contracting actions.


Program Costs

Costs of administering the Schedules program have risen substantially over the years,
but program sales and revenues have risen even more dramatically. FAS has recently
taken some actions which may help reign in program costs, and FAS may be able to
achieve additional savings by adopting a more strategic approach to the Schedules
program and also by enhancing program performance measures.

Program operating expenses were $109.3 million in FY01 and had risen to $165.4
million by FY06 (a 51% increase). Schedules program sales and revenues increased
114% and 54%, respectively, in this same period. The FAS Office of Controller
compares actual revenues and expenses with those that were budgeted.

In addition, the Office of Controller annually develops an efficiency ratio for each center
based upon cycle times and program costs. These ratios assist in determining
appropriate staffing levels.

As explained in other sections of this report, FAS is taking several actions that may
reduce the cost of administering the Schedules program. For example, FAS efforts to



                                        23
expedite award of some MAS contracts and educate vendors regarding program
requirements and expectations may ultimately reduce costs to award contracts. In
addition, FAS efforts to reduce the number of underutilized contracts and
implementation of the strategic approach discussed earlier in this report should result in
cost savings.

Performance plans for Center management address program cost effectiveness, but
GSA’s nationwide performance measures do not. For example, the performance plan
for one of the Center Directors states that 24% of his or her annual performance rating
will be based on program management. Factors included in this critical element are
quality, timeliness and cost effectiveness. FAS drafted a FY07 MAS Scorecard that
incorporates a performance measure related to cost. In addition, it is expected that
FY07 performance plans for FAS Assistant Commissioners will include an incentivized
measure regarding cost.

While GSA has established a nationwide strategic goal of operating efficiently and
effectively, the key performance measures related to this goal do not specifically
address costs for the Schedules program.

Recommendation

We recommend that the Commissioner of FAS:

   10. Establish a nationwide performance measure for the Schedules program related
       to program costs.

Management Comments

In his July 17, 2007 response to the draft report, the Commissioner concurred with the
recommendation. The Commissioner’s comments are included in their entirety as
Appendix A to this report.


Internal Controls

We evaluated FAS management controls related to workload quantity and balance,
work quality, and the timeliness of contract actions in the Greater Southwest Acquisition
Center and the Management Services Center. While we also performed limited work in
the Center for Facilities Maintenance and Hardware, the National Furniture Center, and
the IT Acquisition Center, our review did not include an assessment of controls over
workload management in these Centers. The Results of Audit and Recommendations
sections of this report outline specific improvements needed to strengthen controls over
workload management in FAS acquisition Centers.




                                        24
APPENDICES
        Federal Acquisition Service (FAS) Comments on OIG Draft Report:
                  “Review of Multiple Award Schedule Program
                   Contract Workload Management” (A060190)

General Comments

The Background section of the draft report oversimplifies the ordering procedures for
the Multiple Award Schedule (MAS) program. The report fails to note that prices
established at the schedule contract level provide a starting point from which agencies
can seek further price reductions through competition at the ordering level. The ability to
seek further price reductions allows ordering agencies to leverage their requirements to
take advantage of flexible and dynamic pricing in the commercial marketplace. GSA
strongly encourages its customer agencies to seek further discounts when placing
orders against schedules.

The draft report remarks on the significant increase in the number of schedules and
contracts, and that the industrial funding business model and conversion of the
schedules program to nonmandatory status has led GSA to consider ways to expand
revenue. Revenue is not the principal driver for the expansion of the schedules
program. Rather, the program has expanded in response to our customers’ needs for a
broad suite of products and services to meet their mission requirements.

In that same vein, FAS disagrees with the implication on page 10 that programmatic
decisions are based on increasing revenue. Schedule program expansions are
improvements driven by customer need and by the identification of areas where FAS
can best add value by leveraging Governmentwide needs. As markets evolve and
change, FAS’s buying strategy changes. While the program does need to cover its
costs, the primary considerations are service to Federal agencies and value for
taxpayers—not revenue for FAS.

FAS takes strong exception to the statement on page 17 of the draft report that the
funding of the schedules program through a percentage (.75 percent) of sales provides
“an inherent disincentive related to pricing.” The schedules program competes with
alternative contracting vehicles available to our customer agencies, and FAS is mindful
that our customers are sensitive to pricing. In an environment characterized by price
elasticity of demand, FAS has every incentive to aggressively negotiate pricing. Failure
to do so risks a loss of revenue through diminished sales that exceeds any gain in
revenue resulting from the application of .75 percent to a higher price.

Comments on Specific Recommendations

Recommendation Nos. 1 and 2:

1.     Develop policy to standardize Center processes regarding the method and timing
       of entering modification information into FSS Online.
2.    Amend FSS Online to classify modifications according to relative complexity.

FAS Response:

Partially agree. FAS has begun a strategic process improvement project for schedule
contract modifications. Specific recommendations related to the modification process
should be formulated in the context of this broader reengineering process.

Recommendation No. 3:

Adopt a more structured approach to reduce the number of existing underutilized
schedule contracts.

FAS Response:

Agree. We have already begun this process with the issuance of PIN 2007-3, which
provides guidance to assist in this process. The Center for Facilities Maintenance and
Hardware also offers assistance before canceling a contract to ensure that small
businesses have a chance to grow their contracts. Nevertheless, we agree with the
need to develop a more structured approach.

Recommendation No. 4:

Consider increasing the minimum sales threshold for schedule contracts from the
current minimum ($25,000 for the first two years, and $25,000 annually thereafter).

FAS Response:

Agree. “Pathway to Success” and “How to Become a Contractor – GSA Schedules
Program” are relatively new initiatives, and it is still too early to determine if these
programs will have an impact on reducing the number of underutilized MAS contracts.
Consideration of changes in the threshold must take into account the need to balance
the concerns of the small business community.

Recommendation No. 5:

Begin to implement a more strategic approach for the Schedules program with a focus
on determining the best methods to leverage the government’s requirements for
different types of products and services to obtain best value for customer agencies and
taxpayers. The strategy should include thorough market research and analysis of
commercial practices of products and services offered under the Schedules program in
conjunction with an extensive analysis of government customer buying patterns,
including the level of meaningful competition at the order level.




                                            2
FAS Response:

Agree. FAS is preparing to issue a request for quotations (RFQ) for market research,
analysis, benchmarking, and management consulting services related to MAS contract
pricing. The requirements outlined in the statement of objectives encompass the scope
of this recommendation.

Recommendation No. 6:

Establish specific nationwide guidance related to price analysis documentation
requirements and negotiation policies and techniques for schedule contracts.

FAS Response:

Agree.

Recommendation No. 7:

Establish performance measures that evaluate CO/CS’ (a) verification of vendor
disclosures related to commercial sales practices, (b) effectiveness in analyzing prices
and conducting negotiations, and (c) consideration of the field pricing assistance.

FAS Response:

Partially agree. While FAS agrees with the need for meaningful performance measures,
we are not convinced that the measures listed in the draft report meet the need to
continuously evaluate contract quality. We do not believe that verification of vendor
disclosures related to commercial sales practices is a proper role for a contracting
officer/contract specialist (CO/CS). Performing quantitative analysis during the process
of analyzing prices and conducting negotiations is not appropriate. Finally, before we
measure CO/CS use of field pricing assistance, the OIG and FAS need to better define
that working relationship; there are many variables to be considered. Establishing a
specific performance measure would make the negotiation process more of a “cookie
cutter” approach and would revoke the CO’s right to exercise independent judgment.
FAS would welcome suggestions from the auditors on how performance measures
could be structured to accurately reflect the CO’s performance.

Recommendation No. 8:

Develop standardized procedures for the initial screening of offers to include
1) centralizing the reviews, and 2) expanding the reviews to identify additional material
deficiencies.

FAS Response:

Agree.



                                            3
Recommendation No. 9:

Develop standard operating procedures governing the transfer of contracts when
schedules are reassigned from one Center to another.

FAS Response:

Agree.

Recommendation No. 10:

Establish a nationwide performance measure for the schedules program related to
program costs.

FAS Response:

Agree. FAS strongly agrees that schedules program costs should be measured at the
nationwide level, not at the center level. FAS also strongly advocates a focus on
strategic investment in the schedules program rather than simple cost-cutting.




                                          4
               REVIEW OF MULTIPLE AWARD SCHEDULE PROGRAM
                    CONTRACT WORKLOAD MANAGEMENT
                     REPORT NUMBER A060190/Q/6/P07004


                                    APPENDIX B
                                REPORT DISTRIBUTION

                                                                   Copies

Commissioner, Federal Acquisition Service (Q)                         3

Assistant Inspector General for Auditing (JA & JAO)                   2

Assistant Inspector General for Investigations (JI)                   1

Audit Follow Up and Evaluation Branch (BECA)                          1

Deputy Assistant Inspector General for Acquisition Audits (JA-A)      1

Deputy Assistant Inspector General for Contract Audits (JA-C)         1




                                        B-1
